Report No. DODIG-2013-060                 March 26, 2013




   Improvements Needed With Tracking and Configuring
           Army Commercial Mobile Devices
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CIO                           Chief Information Officer
CMD                           Commercial Mobile Device
ERDC                          Engineer Research and Development Center
IA                            Information Assurance
MDM                           Mobile Device Management
MICA                          Mobile Information Collection Application
PED                           Portable Electronic Device
USACE                         United States Army Corps of Engineers
USMA                          United States Military Academy
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                                   MAR 2 6 2013


MEMORANDUM FOR ARMY CHIEF INFORMATION OFFICER
                         AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Improvements Needed With Tracking and Configuring Army Commercial
             Mobile Devices (Report No. DODIG-2013-060)


We are providing this repott for review and comment. The Army did not implement an
effective cybersecurity program for commercial mobiles devices. If devices remain
unsecure, malicious activities could disrupt Army networks and compromise sensitive
DoD information. We considered management comments on a draft of this report when
preparing the final report.


DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
received comments fi·om the Director, Army Chief lnfotmation Officer Cybersecurity
Directorate on behalf of the Chief Information Officer, Department of the Army. The
Director's comments on Reconunendations 1 and2 were nonresponsive. Therefore, we
request additional comments from the Chieflnformation Officer, Department of the
Army, on these recommendations by April25, 2013. We considered the Director's
comments on Recommendation 3 responsive.


Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a portable document file (.pdf) containing your comments to
audros@dodig.mil. Copies of management comments must have the actual signature of
the authorizing official. We are unable to accept the /Signed/ symbol in place of the
actual signature. If you arrange to send classified comments electronically, you must
send them over the SECRET Internet Protocol Router Network (SIPRNET).


We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604- 8866 (DSN 664-8866).




                                            1;1             /\/ (
                                           L A..- ( ;.. t '-....J lt().JYj(---'\
                                                  .



                                                      l              .
                                                                     .



                                             Alice F. Carey              {)
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2013-060 (Project No. D2012-D000LC-0147.000)                March 26, 2013


              Results in Brief: Improvements Needed With
              Tracking and Configuring Army Commercial
              Mobile Devices
                                                        •   require training and use agreements
What We Did                                                 specific to CMDs. The CIOs at USMA
Our objective was to determine whether the                  and USACE ERDC did not train CMD
Department of the Army had an effective                     users and require users to sign user
cybersecurity program that identified and                   agreements.
mitigated risks surrounding commercial mobile          These actions occurred because the Army CIO
devices (CMDs) and removable media.                    did not develop clear and comprehensive policy
Specifically, at the sites visited, we verified        for CMDs purchased under pilot and non-pilot
whether Army officials appropriately tracked,          programs. In addition, the Army CIO
configured, and sanitized CMDs. Additionally,          inappropriately concluded that CMDs were not
we determined whether the Army used                    connecting to Army networks and storing
authorized removable media on its network.             sensitive information. As a result, critical
                                                       information assurance controls were not
                                                       appropriately applied, which left the Army
What We Found                                          networks more vulnerable to cybersecurity
The Army Chief Information Officer (CIO) did           attacks and leakage of sensitive data.
not implement an effective cybersecurity
program for CMDs. Specifically, the Army CIO           What We Recommend
did not appropriately track CMDs and was
unaware of more than 14,000 CMDs used                  The Army CIO should develop clear and
throughout the Army. Additionally, at the sites        comprehensive policy to include requirements
visited, the Army CIO did not:                         for reporting and tracking all CMDs. In
                                                       addition, the Army CIO should extend existing
 • ensure that Commands configured CMDs
                                                       information assurance requirements to the use of
      to protect stored information. The CIOs
                                                       all CMDs.
      at United States Military Academy
      (USMA) and United States Army Corps
      of Engineers (USACE) Engineer Research           Management Comments and
      and Development Center (ERDC) did not            Our Response
      use a mobile device management                   The Director, Army CIO Cybersecurity
      application to configure all CMDs to             Directorate provided comments on behalf of the
      protect stored information.                      Army CIO, and agreed with the report
 • require CMDs to be properly sanitized.              recommendations, but the comments on
      CIOs at USMA and USACE ERDC did                  Recommendations 1 and 2 were nonresponsive.
      not have the capability to remotely wipe         We request comments in response to the final
      data stored on CMDs that were transferred,       report by April 25, 2013. Please see the
      lost, stolen, or damaged.                        recommendations table on the back of this page.
 • control CMDs used as removable media.
      The CIOs at USMA and USACE ERDC
      allowed users to store sensitive data on
      CMDs that acted as removable media.


                                                   i
Report No. DODIG-2013-060 (Project No. D2012-D000LC-0147.000)     March 26, 2013

Recommendations Table

        Management               Recommendations        No Additional Comments
                               Requiring Comment              Required
Chief Information Officer,    1, 2                  3
Department of the Army

Please provide comments by April 25, 2013.




                                             ii
Table of Contents
Introduction                                                   1

      Objectives                                               1
      Adopting New Technologies                                1
      Army Chief Information Officer Responsibilities          2
      CMDs Used by Army Activities Visited                     2
      Review of Internal Controls                              4

Finding. Cybersecurity Program for CMDs Needs Improvement      5

      Guidance on the Use of CMDs                              5
      CMD Tracking Needs Improvement                           5
      CMDs Not Consistently Configured                         6
      Sanitization Requirements Did Not Exist                  7
      Controls Lacking for CMDs Used as Removable Media        7
      CMD-Specific Training and User Agreements                8
      Comprehensive Policy Specific to CMDs Needed             8
      Army and Command CIOs Recognized Need for Change         9
      Conclusion                                               9
      Recommendations, Management Comments, and Our Response   9

Appendix

      Scope and Methodology                                    12
      Use of Computer-Processed Data                           13
      Use of Technical Assistance                              13
      Prior Coverage                                           13

Management Comments

      Army Chief Information Officer                           14
Introduction
Objectives
Our objective was to determine whether the Department of the Army had an effective
cybersecurity program that identified and mitigated risks surrounding portable electronic
devices (PEDs) and removable media. Specifically, at the sites visited, we verified
whether Army officials appropriately tracked, configured, and sanitized PEDs.
Additionally, we determined whether the Army used authorized removable media on its
network. For a discussion on scope and methodology, see the Appendix.

Considering the broad definition of PEDs 1, we limited our review to commercial mobile
devices (CMDs) running on the Apple iOS, Android, and Windows mobile operating
systems. In addition, we excluded BlackBerry devices because the DoD OIG issued a
report on September 25, 2009, “Controls Over Information Contained in BlackBerry
Devices Used Within DoD” (DoD IG Report No. D-2009-111). Furthermore, our review
focused on the use of CMDs as removable media and the removable media within the
CMDs.

Adopting New Technologies
With the rapid changes in information technology, the Army decided to adopt newer
technologies, starting with incorporating CMDs into daily activities. As the Army
adopted this newer technology, it began testing CMDs in the field and in administrative
offices. In 2009, the Army Vice Chief of Staff directed the Army Chief Information
Officer (CIO) to begin procuring inexpensive systems such as Apple iPhone and Google
Android CMDs instead of the traditional procurement of dedicated software and
hardware. DoD explored options to procure devices, such as Apple and Android
products.

DoD Mobile Device Strategy
In June 2012, the DoD CIO released the DoD Mobile Device Strategy to identify the
vision and goals for using the full potential of mobile devices. The strategy focused on
the following areas of improvement critical to mobility.
    • wireless infrastructure to support the secure access and sharing of information via
        voice, video, or data by mobile devices;
    • policies, processes, and standards to support secure mobile device usage, device-
        to-device interoperability, and consistent device lifecycle management;
    • processes and tools to enable consistent development, testing, and distribution of
        DoD-approved mobile applications for faster deployment to the user; and


1
  Army Regulation 25-2 defines a PED as a portable device with or without the capability of wireless or
local area network connectivity. PEDs include cell phones, tablets, pagers, personal digital assistants,
laptops, memory sticks, thumb drives, and two-way radios. In addition, the Army CIO further states CMDs
are tablets and smartphones that have a unique combination of computing power, mobile applications, and
access to network data, which sets CMDs apart from other PEDs.

                                                   1
   •   policies, processes, and mechanisms for appropriately Web-enabling critical DoD
       information technology systems and functions for mobile devices.

Army Chief Information Officer Responsibilities
The Army CIO is responsible for supervising Army information technology functions
and advising the Chief of Staff of the Army on network, communications, and signal
operations. In addition, the Army CIO manages the Army cybersecurity program, which
includes analyzing and improving business processes, and managing information
resources, acquisitions, and training. According to Army Regulation 25-1, “Army
Knowledge Management and Information Technology,” December 4, 2008, the Army
CIO must provide oversight of the Army information assurance program. In 2010, the
Army CIO released guidance for the Army on piloting and integrating new mobile device
technologies, requiring any Army command or organization to identify the mobile device
activities to the Army CIO. In 2011, the Army CIO issued additional guidance requiring
all Army pilots using CMDs to obtain pilot authorization so that the Army CIO could
track and share lessons learned and prevent duplication of effort.

Risks of CMDs
Both the DoD CIO and the Army CIO recognized the risk of emerging CMD
technologies on DoD information. Applications installed on devices may contain
malware or spyware, or may perform unexpected functions such as tracking user actions
or sending private information to outsiders. Additionally, hackers can access features on
devices such as the Bluetooth or Wi-Fi radios connected to devices without the user’s
knowledge. Most CMDs, as purchased, do not come equipped with the security controls
and other necessary security features required by DoD, presenting an undue risk to the
enterprise.

CMDs Used by Army Activities Visited
We conducted a datacall requesting a list of all smartphones (excluding BlackBerry
devices) and tablets that the Army procured from October 1, 2010, through
May 31, 2012. We received a list of more than 14,000 CMDs used throughout the Army.
As a result of the responses, we visited two sites to verify whether the CMDs in use were
appropriately tracked, configured, and sanitized, and followed policy for using CMDs as
removable media. Specifically, we visited the United States Military Academy (USMA)
at West Point, New York, and the United States Army Corps of Engineers (USACE),
Engineer Research and Development Center (ERDC) at Vicksburg, Mississippi. USMA
reported 276 CMDs, and USACE ERDC reported 276 CMDs, totaling 552 CMDs.
USACE ERDC reported an additional 290 CMDs during the site visit, which increased
the number of devices at the two locations to 842. The number of CMDs listed in the
table represents the number that each site reported to the DoD Office of Inspector
General (OIG) and does not reflect the total number of devices each site actually used.
The following table shows how each location used the devices, the total number reported,
and total estimated cost of those devices.



                                            2
                Table. CMDs Reported by USMA and USACE ERDC

                                                                              Total
         Site             Device Usage       Number of Devices
                                                                         Estimated Cost
 USMA                   Research Devices              276                   $242,444*
                          Pilot Devices               276                    122,400
 USACE ERDC                 Non-Pilot                 290                    120,950
                             Devices
    Total                                         842                    $485,794
* This represents cost for 266 devices. USMA was unable to provide cost for 10 devices.

The following outlines the number of devices tested at each site location. At USMA, we
selected 72 CMDs to test; however, we tested only 48 CMDs because 24 of the 72 CMDs
were in the possession of faculty members and cadets who were not on site. In addition,
we selected 71 devices at USACE ERDC. During the site visit, the Program Manager
informed the team that USACE ERDC had an additional 290 non-pilot devices, which
increased the number of devices to 566 CMDs. As a result, we selected an additional 72
CMDs to test, for a total of 143 CMDs at USACE ERDC. However, we tested only 133
CMDs (62 non-pilot general research CMDs and 71 pilot CMDs) because 10 CMDs were
in the possession of personnel who were unavailable.

CMDs Used by United States Military Academy
USMA trains cadets to become officers in the United States Army. USMA originally
acquired CMDs for use in a pilot program to assess the usability of the devices in support
of the academic program. The assessment provided USMA an opportunity to discover
what enhancements are possible for using CMDs to educate cadets. USMA also procured
CMDs for other research purposes, such as a military history e-book, that leverages the
capabilities of mobile devices. Cadets and faculty also examined mobile device security
and application development using CMDs.

CMDs Used by United States Army Corps of Engineers, Engineer
Research and Development Center
USACE ERDC acquired CMDs for both pilot and non-pilot programs. USACE ERDC
has two pilot programs: Mobile Information Collection Application (MICA) and Blue
Roof. In addition, USACE ERDC labs use CMDs for general research.

USACE ERDC Mobile Information Collection Application Pilot
Program
The MICA pilot program uses CMDs to replace the manual field data collection process
during a natural disaster. Using the device’s built-in capabilities, personnel could take a
picture, automatically capture the latitude and longitude, add notes, and instantly upload
the data to the server for analysis if Internet access were available. In areas with no




                                             3
access available, the device stores the data until the individual returns to a location with
access. These capabilities allow decision makers to have immediate feedback on flood
conditions.

USACE Blue Roof Pilot Program
Working under the authority of the Federal Emergency Management Agency, USACE
contractors can prevent additional damage to homes after a hurricane or other disaster by
installing blue plastic sheeting as part of the Operation Blue Roof program. CMDs
replace paper forms by capturing the information digitally in the beginning.
Homeowners use the CMD to request assistance and to provide the authorization for
USACE personnel to enter the property, but the system automatically disqualifies
homeowners who live outside an affected area and assigns an inspector for homes that
qualify. Inspectors use the CMD to enter photos and notes, as well as the quantity of
materials needed to repair the home.

General Research Programs
USACE ERDC also uses CMDs as part of general research programs. Research projects
at USACE ERDC varied from application development to e-readers for scholarly
journals. Additionally, USACE ERDC employees used these devices for personal use.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for Army. The Army CIO did not implement an effective cybersecurity
program for CMDs because they did not develop clear and comprehensive policy related
to all CMDs. In addition, the Army CIO inappropriately concluded that CMDs were not
connecting to Army networks and storing sensitive information; and, therefore, did not
extend current IA requirements to the use of CMDs. We will provide a copy of the
report to the senior official responsible for internal controls in the Department of the
Army.




                                              4
Finding. Cybersecurity Program for CMDs
Needs Improvement
The Army CIO did not implement an effective cybersecurity program applicable to
CMDs. Specifically, the Army CIO did not appropriately track more than 14,000 CMDs
purchased as part of pilot and non-pilot programs 2. In addition, at the two sites visited,
the Army CIO did not:
    • ensure that Commands configured CMDs adequately to secure data stored on the
       device,
    • require all CMDs to be sanitized before transfer or loss,
    • control CMDs used as removable media, and
    • require training and user agreements specific to CMDs.
This occurred because the Army CIO did not develop clear and comprehensive policy for
CMDs purchased under pilot and non-pilot programs. In addition, the Army CIO
inappropriately concluded that CMDs were not connecting to Army networks and storing
sensitive information; and, therefore, did not extend current IA requirements to the use of
CMDs. Without an effective cybersecurity program specific to CMDs, critical IA
controls necessary to safeguard the devices were not applied, and the Army increased its
risk of cybersecurity attacks and leakage of sensitive data.

Guidance on the Use of CMDs
DoD CIO Memorandum, “Use of Commercial Mobile Devices in the Department of
Defense,” April 6, 2011, provides security objectives for CMDs that outline current
challenges and potential mitigation activities. The memorandum requires Component
CIOs to review security requirements for using CMDs and to implement controls to
address the following:
   • using an enterprise management system to manage and control CMDs,
   • encrypting and sanitizing sensitive DoD information stored on CMDs,
   • granting access to CMDs through DoD identification and authentication
       requirements,
   • using private key infrastructure credentials to send and receive e-mail messages,
   • installing designated approving authority-approved software and applications,
       and
   • training users on CMDs.

CMD Tracking Needs Improvement
The Army CIO did not appropriately track CMDs purchased as part of pilot and non-pilot
programs. According to the Army CIO memorandum, “U.S. Army Guidance on Piloting
Commercial Mobile Devices,” November 3, 2011, Commands are required to obtain
authorization from the Army CIO for all pilots using CMDs. However, Commands used


2
    Pilot CMDs are devices that test the feasibility of incorporating the use of CMDs into daily activities.

                                                         5
                                                              Commands used more
more than 14,000 CMDs without obtaining appropriate            than 14,000 CMDs
authorization from the Army CIO. For example, the CIO at        without obtaining
USACE ERDC did not obtain authorization from the Army              appropriate
CIO for CMDs purchased as part of its pilot and non-pilot    authorization from the
CMD programs. As a result, the Army CIO was unaware of             Army CIO.
566 CMDs used by USACE ERDC. Furthermore, USMA
did not obtain authorization for all CMDs purchased.
Specifically, the Army CIO was aware of only 180 of 276 CMDs actually in use at
USMA.
In addition to not obtaining the Army CIO authorization, CIOs at USMA and USACE
ERDC did not obtain an interim authority to test. According to the DoD Information
Assurance Certification and Accreditation Process, organizations must obtain an interim
authority to test when live data are required to complete a specific test objective.
However, CIOs at the two sites visited used live data, such as sensitive legal information
at USMA and corporate e-mails at USACE ERDC, without obtaining an interim authority
to test.
Furthermore, CIOs at USMA and USACE ERDC did not maintain an accurate
accounting of CMDs. Specifically, they retained on their property books for CMDs that
were lost, stolen, and damaged. Army Regulation 735-5, “Policies and Procedures for
Property Accountability,” states Commands should initiate a financial liability
investigation of property loss when they identify lost, damaged, or destroyed property.
The two sites visited did not always complete the financial liability investigation of
property loss and report the devices to the Army CIO. For example, one MICA
programmer at USACE ERDC damaged an iPhone and did not report the damage.
Instead, the user replaced the device using personal funds and discarded the Government-
issued device without the consent and knowledge of the Program Manager.

CMDs Not Consistently Configured
The Army CIO did not ensure that Army                       15 of 48 CMDs did not
Commands and Components configured CMDs to                  require a password to
adequately secure data stored on the device. DoD              access the device.
Directive 8500.01E, “Information Assurance,”
April 23, 2007, states that all IA and IA-enabled information technology products
incorporated into DoD information systems will be configured in accordance with DoD
approved security configuration guidelines and require a properly administered and
protected password. Furthermore, according to the DoD CIO Memorandum, “Use of
Commercial Mobile Devices in the Department of Defense,” April 06, 2011, devices
receiving or processing DoD information are considered part of a DoD information
system and must be managed and controlled by an enterprise management system such as
a mobile device management (MDM) application. MDM applications allow
administrators to push security policies to manage devices and modify device
configuration. However, at the two sites visited, CIOs at USMA and USACE ERDC did
not use an MDM application to configure all CMDs. For example, the USMA CIO did
not use an MDM application to configure 48 of 48 CMDs to require passwords. Instead,


                                            6
USMA officials relied on individual users to create passwords to unlock CMDs. As a
result, 15 of 48 CMDs did not require a password to access the device.

In addition, the CIO at USACE ERDC did not use an MDM application to configure 62
of 62 non-pilot general research CMDs. USACE ERDC relied on individual users to
configure non-pilot general research CMDs to require password for unlocking devices.
As a result, users inconsistently configured passwords. Of the 62 non-pilot general
research devices, 12 devices did not require a password to access the device. In addition,
the Program Manager at USACE ERDC did not appropriately configure 71 of the 71 pilot
CMDs managed by the AirWatch 3 MDM application. Although USACE ERDC used an
MDM application for Blue Roof and MICA devices, it did not configure the MDM
application to appropriately secure CMDs. As a result, passwords for Blue Roof and
MICA pilot devices did not meet password complexity requirements.

Sanitization Requirements Did Not Exist
The Army CIO did not require all CMDs to be sanitized before transfer or after a device
was lost, stolen, or damaged. The DoD CIO Memorandum, “Use of Commercial Mobile
Devices in the Department of Defense,” April 6, 2011, states that the system
administrator will have the capability to transmit a remove data wipe command to the
CMD. However, CIOs at USMA and USACE ERDC did not have the capability to
remotely wipe all transferred, lost, stolen, or damaged CMDs. For example, the USMA
Center for Faculty Excellence relied on users to reset the device to factory setting (a
method of sanitization) before transferring to another user. As a result, 2 out of 48 CMDs
still contained information from the previous user. Although USACE ERDC had the
capability to remotely wipe CMDs used in the Blue Roof and MICA pilot programs using
an MDM application, the CIO at USACE ERDC did not use an MDM application on the
non-pilot general research CMDs. As a result, USACE ERDC could not wipe two
devices stolen from a USACE ERDC employee’s home.

Controls Lacking for CMDs Used as Removable Media
The Army CIO did not control CMDs used as              Cadets at USMA used CMDs as removable
removable media. The Army CIO Information               media to transfer and store sensitive case
Assurance Best Business Practice, “Control of           files and evidence related to Cadet Honor
Removable Media,” February 29, 2012, requires                      Committee hearings.
Commands to strictly control removable media
used to transfer personally identifiable information or public health information. CIOs at
USMA and USACE ERDC did not adequately protect sensitive data stored on CMDs
used as removable media. For example, cadets at USMA used CMDs as removable
media to transfer and store sensitive case files and evidence related to Cadet Honor




3
 AirWatch allows administrators to establish baseline configurations to authenticate users, set security
policies, protect personal and corporate data through encryption, prevent unauthorized device use, and
perform monitoring and management functions.

                                                     7
Committee 4 hearings. Cadet investigators also used these CMDs as personal devices.
The USMA CIO stated he was unaware that the devices were being used in this capacity.
As a result, USMA did not implement the proper security controls to protect the sensitive
investigative data stored on the devices. In addition, one user at USACE ERDC used a
non-pilot CMD as removable media to transfer research documents and personally
identifiable information from a networked computer.

CMD-Specific Training and User Agreements
The Army CIO did not require training and user agreements specific to CMDs. DoD
Directive 8500.01E, “Information Assurance,” April 23, 2007, requires the Army CIO to
adequately train all personnel before authorizing access to DoD information systems.
Additionally, the Defense Information Systems Agency, Smartphone Policy Security
Technical Implementation Guide, Version 1, Release 6, November 23, 2011, provides a
list of topics that users must receive training on before they are issued a CMD.
Furthermore, the General Wireless Policy Security Technical Implementation Guide,
Version 1, Release 7, November 23, 2011, requires users to sign a user agreement.

The CIO at USACE ERDC did not train CMD users outside of the Blue Roof and MICA
pilot programs. Additionally, the CIO at USACE ERDC did not require pilot and non-
pilot CMD users to sign a user agreement. Furthermore, the CIO at USMA did not have
an IA training program specific to CMDs nor did they require users to sign a user
agreement. For example, one user at USMA was unaware how to set up a password on
the CMD. As a result, the user did not protect the device with a password.

Comprehensive Policy Specific to CMDs Needed
The Army CIO did not develop clear and comprehensive policy for CMDs purchased
under pilot and non-pilot programs. Although the Army intended the current guidance to
apply to all CMDs, the Army CIO specified requirements only for pilot programs and did
not define what constitutes a CMD pilot program. The lack of clear and comprehensive
guidance contributed to Army Commands not reporting and configuring CMDs to protect
Army networks and data. As a result, risk increased that Army networks may become
vulnerable to cybersecurity attacks and leakage of sensitive data. The Army CIO should
develop clear and comprehensive policy to include requirements for reporting and
tracking all CMDs purchased.

In addition, the Army CIO inappropriately concluded that CMDs were not connecting to
Army networks and storing sensitive information. As a result, the Army CIO did not
extend current IA requirements to the use of CMDs. The current Army CIO guidance for
CMDs did not outline IA requirements for configuring and sanitizing CMDs, using
CMDs as removable media, and completing training and user agreements. If the Army
CIO does not extend current IA requirements to CMDs, risk increases that CMDs will be
used to obtain unauthorized access to sensitive Army data. Therefore, the Army CIO


4
 The Cadet Honor Committee is a cadet-run group that investigates violations to the USMA honor code,
such as cheating, lying, and stealing, and recommends potential punishment to the USMA Superintendent.

                                                   8
should designate CMDs as information systems, extend existing IA requirements to the
use of all CMDs, and develop a process to verify that users of CMDs are following Army
and DoD IA policies.

Army and Command CIOs Recognized Need for Change
As a result of our inquiries into the number of devices, the Army CIO stated that more
Commands were reporting CMDs. The Army CIO indicated that accountability and
tracking of CMDs has improved. In addition, On July 10, 2012, the CIO at USMA
immediately directed the head of the Cadet Honor Committee to no longer allow cadet
investigators to use CMDs as removable media to store sensitive data until USMA could
configure the CMDs appropriately to protect case file information.

Furthermore, on August 28, 2012, the CIO at USACE ERDC issued an immediate
moratorium on the acquisition of new CMDs. The moratorium stated that until USACE
ERDC developed guidance and corrective action plan, personnel could not use
Government funds to purchase CMDs. USACE ERDC recognized the need to use all
aspects of AirWatch to manage and configure all CMDs. The CIO at USACE ERDC
also began purchasing additional AirWatch licenses to ensure that all CMDs were
appropriately managed and configured.

Conclusion
The Army CIO did not implement an effective cybersecurity program applicable to
CMDs. Specifically, the Army CIO did not appropriately track more than 14,000 CMDs
purchased as part of pilot and non-pilot programs. In addition, at the two sites visited, the
Army CIO did not:
   • ensure that Commands configured CMDs adequately to secure data stored on the
       device,
   • require all CMDs to be sanitized before transfer or loss, and
   • control CMDs used as removable media.
Without an effective cybersecurity program specific to CMDs, critical IA controls
necessary to safeguard devices were not applied. As a result, the Army increased its risk
of cybersecurity attacks and leakage of sensitive data.

Recommendations, Management Comments, and Our
Response
We recommend that the Chief Information Officer, Department of the Army:

1. develop clear and comprehensive policy to include requirements for reporting
and tracking all commercial mobile devices purchased under pilot and non-pilot
programs.

Army Chief Information Officer Comments
The Director, Army CIO Cybersecurity Directorate, responding for the Army CIO
agreed, stating the Army CIO Cybersecurity Directorate maintained a SharePoint Portal

                                             9
and directed all Army organizations entering into a pilot to register and provide project
documentation. Additionally, an Army Senior Leader with authority to accept risk for
the designated organization must declare that guidance and policy is in place that aligns
with the DoD Commercial Mobile Devices Implementation Plan. The Director also
stated that the Army can access the Defense Information Systems Agency CONUS
property management system, which accounts for every CMD assigned to the Army and
that the system is used in the ongoing Defense Information Systems Agency Mobile
Pilot. Furthermore, the Director stated that the Army Mobile Assurance Program
Managers received and discussed this information during the Army Mobile Electronic
Device Working Group meetings. The Director indicated that the Army CIO published
guidance in November 2011 that directed Army organizations to register each pilot and
document senior approval.

Our Response
We considered the comments from the Director to be nonresponsive. We found that
Army Commands used more than 14,000 CMDs without receiving appropriate
authorizations from the Army CIO. Of those devices, we identified 566 CMDs used by
USACE ERDC and 96 CMDs at USMA that were not registered. Therefore, the
SharePoint Portal would not be useful in accounting for the Army Commands using
unregistered CMDs and devices that are not part of a pilot program. In addition, the
current guidance published by the Army CIO inconsistently addressed CMDs registered
in pilot programs only. The policy did not define what constitutes a pilot program, which
resulted in the Army Commands not reporting and configuring CMDs appropriately. We
request the Army CIO to provide comments to the final report.

2. designate commercial mobile devices as information systems and extend existing
information assurance requirements to the use of commercial mobile devices.

Army Chief Information Officer Comments
The Director agreed with the recommendation, stating that users loosely apply
designating CMDs as an information system. The Director also stated CMDs is
considered an extension of that environment and did not require a separate designation
and provides an interface into an existing system or environment. The Director stated
that the Army, along with DoD and the Defense Information Systems Agency, are
working to establish the ability to manage mobile devices utilizing an MDM system
along with a Mobile Application Store. The Director stated that, in the end, DoD would
be able to observe every managed mobile device and every application operating on these
devices. According to the Director, the DoD memorandum on DoD Commercial Mobile
Implementation Plan, dated February 2013, addresses this capability.

Our Response
We considered the comments from the Director to be nonresponsive. Without specific
requirements to designate CMDs as information systems, users of CMDs would not apply
the appropriate information assurance controls to protect the devices and the data
contained on the devices. In addition, without a clear timeline on managing CMDs, there


                                            10
is an increased risk that Army networks could be vulnerable to data leakage. We request
that the Army CIO provide comments to the final report.

3. develop a process to verify that users of commercial mobile devices are following
Army and DoD information assurance policies and implementing the appropriate
security controls to protect commercial mobile devices.

Army Chief Information Officer Comments
The Director agreed and stated that as the Defense Information Systems Agency and
Army established the MDM and Mobile Application Store architectures that would make
all CMDs managed mobile devices, which would result in the DoD and Army Service
Provider having the ability to observe every DoD-managed CMD and the applications
operating on the CMD. In addition, the Director stated that the Army would gain the
ability to wipe or remove a device from the environment as well as monitor applications
used, web sites visited, and data viewed, saved, or modified on the mobile devices.
According to the Director, the Army issued a request for proposal for the MDM and
Mobile Application Store and projected the determination of the award would be April
2013,initial operating capability expected by October 2013, and full operating capability
being available before the end of FY 2014.

Our Response
The Director’s comments were responsive. Therefore, no further comments are required.




                                           11
Appendix. Scope and Methodology
We conducted this performance audit, from April 2012, through February 2013, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We determined whether the Department of the Army had an effective cybersecurity
program that identified and mitigated risks surrounding portable electronic devices and
removable media. We limited our review to tablets and smartphones running on Apple
iOS, Android, and Windows, mobile operating systems. We interviewed personnel in the
Army CIO’s office, DoD CIO’s office, and the CIOs and users at USMA and USACE
ERDC. In addition, we requested a list of in-scope CMDs used throughout the Army
from October 1, 2010, through May 31, 2012. The Army CIO was unable to provide a
complete list and provided only a list of Commands that had registered CMD pilot
programs. As a result, we conducted a datacall from June 1, 2012, through July 27, 2012,
requesting a list of all smartphones (excluding BlackBerry devices) and tablets procured.
We received responses from the 3 major Commands, 6 of the 9 Service Component
Commands, 9 of the 10 Direct Report Units, the Army Accessions Command, Army
Cyber Command, and Eighth U.S. Army, totaling more than 14,000 devices. We
selected USMA and USACE ERDC because these locations reported the highest number
of CMDs.

We performed testing at USMA, West Point, New York, and USACE ERDC, Vicksburg,
Mississippi, from July 2012 through August 2012. The DoD OIG statistician from the
Quantitative Methods Division computed sample sizes using a 95 percent confidence
level and a 10 percent precision rate. At USMA, we selected a statistical sample of 72
out of 276 CMDs. However, we were able to test only 48 CMDs because of device
availability. At USACE ERDC, we selected a statistical sample of 71 out of 276 pilot
CMDs and a statistical sample of 72 out of 290 general research CMDs. However, we
were able to test only 71 pilot devices and 62 general research devices because of device
availability. We were unable to project across the universe because of the incomplete
universe and Commands lack of accountability.

We evaluated device security controls by reviewing inventory records, site policies, and
procedures, and interviewing CMD users and other relevant personnel. In addition, we
examined and tested CMD settings, such as password, operating system version,
Bluetooth, and Wi-Fi to determine whether CMDs were configured or could be
manipulated by users. We also reviewed MDM application security settings to determine
whether CMDs were properly configured, when available. Specifically, the audit team
obtained screenshots of the MDM application settings to determine whether devices had
appropriate security settings.




                                           12
Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
The DoD OIG’s Quantitative Methods Division assisted with the audit by generating a
sample of devices to test for each location using a 95 percent confidence level and a 10
percent precision rate. We obtained assistance from information assurance officers with
the DoD OIG’s Information Systems Directorate to create the testing steps. The
information assurance officers reviewed the audit team’s testing steps to ensure that the
steps accurately tested relevant criteria.

Prior Coverage
During the last 5 years, the DoD Inspector General (DoD IG) has issued one report and
the Army Audit Agency has issued one memorandum report related to Army CMDs.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2009-111, “Controls Over Information Contained in BlackBerry
Devices Used Within DoD,” September 25, 2009

Army Audit Agency
Army Audit Agency Memorandum Report No. A-2011-0215-IET, “The Army’s Use of
Smart Phones (Project Number A-2011-IET-0400.000),” September 29, 2011




                                            13
Army Chief Information Officer Comments




                              14
                                   UNCLASSIFIED

ENCLOSURE: CIO/G-6 Cybersecurity Directorate Second Response to Department of
Defense Office of Inspector General Draft Report Improvements Needed with Tracking
and Configuring Army Commercial Mobile Devices (Project No. D2012-DOOOLC-
0147.000)

Objective: To determine whether the Department of the Army had an effective
cybersecurity program that identified and mitigated risks surrounding commercial mobile
devices (CMDs) and removable media. Specifically, at the sites visited, we verified
whether Army officials appropriately tracked, configured, and sanitized CMDs.
Additionally, we determined whether the Army used authorized removable media on its
network.

Finding: The Army Chief Information Officer (CIO) did not implement an effective
Cybersecurity program for CMDs. Specifically, the Army CIO did not appropriately track
CMDs and was unaware of more than 14,000 CMDs used throughout the Army.

Recommendation 1

The Chief Information Officer, Department of the Army, develop clear and
comprehensive policy to include requirements for reporting and tracking all commercial
mobile devices (CMD) purchased under pilot and non-pilot programs.

Chief Information Officer/G-6 Response:

Concur that the Army develop clear and comprehensive policy to include requirements
for pilot approval of CMDs.

Currently the Army has numerous approved mobile pilots and is also a participant in the
DoD/DISA Mobile pilot. The Army CIO, LTG Lawrence signed the memorandum titled
"U.S. Army Guidance on Piloting of Commercial Mobile Devices, dated Nov 3, 2011.
This memorandum directs Army organizations to register each mobile pilot. The Army
Cybersecurity Directorate maintains a SharePoint Portal where an Army organization
must register a mobile pilot and provide project artifacts. An Army Senior Leader, who
has the authority to accept risk and to make decision for the designated organization,
provides the artifacts in the form of a declaration or through an on line survey. The
registration process ensures that sensitive information (FOUO) and Personal Identifiable
Information (PII) is not allowed and the platform cannot connect to the Army email
system. On 3 April 2012 the Secretary of the Army signed a memorandum titled "Mobile
Computing Devices" and stated no unauthorized CMDs will be connected to the NIPRnet
or used to conduct official business.

This guidance and direction was communicated to all the Army Information Assurance
Program Managers (IAPMs) across the Army as well as during the Mobile Electronic
Working Groups. In summary, no CMDs are currently allowed for Army use outside of
authorized pilots and policy and guidance has been promulgated.

A Headquarters Department of Army (HQDA) staff element that approves an Army pilot
would not maintain property accountability for any equipment that is purchased to
support that pilot. The organization that purchases the equipment is responsible for
maintaining accountability JAW Army property accountability regulations and procedures.



                                   UNCLASSIFIED




                                                   15
                                   UNCLASSIFIED

ENCLOSURE: CIO/G-6 Cybersecurity Directorate Second Response to Department of
Defense Office of Inspector General Draft Report Improvements Needed with Tracking
and Configuring Army Commercial Mobile Devices (Project No. 02012-DOOOLC-
0147.000)

It is also important to note that the number of devices that an organization purchases to
support a pilot is not important. What is important is that the devices are used lAW the
policy and guidelines that were approved for the pilot.

Recommendation 2


The Chief Information Officer, Department of the Army, should designate commercial
mobile devices as information systems and extend existing information assurance
requirements to the use of commercial mobile devices.

Chief .Information Officer/G·6 Response:


Concur that the Army should extend existing information assurance requirements to the
use of commercial mobile devices, but the Army will not establish CMDs as a
separate/stand alone system. A CMD is an extension of the existing Information System
and does not require a separate designation; it provides an interface to an existing
system or environment and will fall under the Control of the Host system. In order to
further support the position of not considering a CMD an information system, the Army,
along ·with DoD and DISA, are working to establish the ability to manage Mobile Devices.
Mobile devices will be managed utilizing a Mobile Device Management (MDM) system in
concert with a Mobile Application Store (MAS). End state will be the DoD Enterprise
ability to observe every managed Mobile device, as well as every application operating
on a DoD-managed Commercial Mobile Device. This action is in development,
projected to be in place by the end FY14. This capability is addressed in the DoD
memorandum that the DoD CIO signed titled "DoD Commercial Mobile Implementation
Plan" dated February 2013.

Recommendation 3


The Chief Information Officer, Department of the Army, develop a process to verify that
users of commercial mobile devices are following Army and DoD information assurance
policies and implementing the appropriate security controls to protect commercial mobile
devices.

Chief Information Officer/G-6 Response:


Concur that the Army leverage a process to verify that users of CMDs follow Army and
DoD information assurance policies and implement the appropriate security controls to
protect CMDs.

The Army has already transitioned over 1 million users to the DoD/DISA email enterprise
unclassified email system. DISA has become the Army's service provider. As DISA
establishes the MOM and MAS architecture, Army mobile devices will become managed
mobile devices. The governance and oversight will be established as a DISA service.
This capability will include visibility, oversight of proper configuration, and management



                                    UNCLASSIFIED

                                            2




                                                           16
                                    UNCLASSIFIED

ENCLOSURE: CIO/G-6 Cybersecurity Directorate Second Response to Department of
Defense Office of Inspector General Draft Report Improvements Needed with Tracking
and Configuring Army Commercial Mobile Devices (Project No. 02012-DOOOLC-
0147.000)

of all devices. Additionally, the capability to wipe or remove a device from the
environment and the ability to monitor usage of a mobile device with respect to
applications utilized, web sites visited, and data viewed, saved or modified will also be
available. The policy is in place to require the Army to utilize the MDM and MAS. This
action is in development and planned to be in place by the end of FY14. The Request
 for Proposal (RFP) for the MOM and MAS has closed and the determination of the
 award is projected for April2013. The build out and implementation of the awarded
·solution is projected to achieve Initial Operating Capability (lOG) by October 2013 with
 Full Operating Capability (FOG) to follow before the end of FY14.

DoD has issued over 30 policies memos, Security Requirements Guides (SRG), and
Security Technical Implementation Guides (STIG) that apply to mobile technology.
Detailed information on DoD mobile security policies can be found at
http://iase.disa.mil/stigs/a-z.html. As a component of DoD, the Army is required to
comply with these regulations. The DoD Instruction 8100.04 "DoD Unified Capabilities",
dated 9 DEC 2010, states that all devices that provide unified communications (including
CMDs) must have appropriate technical and security documents in place. The
instruction specifically requires the use SAGs and STIGs to prescribe the requirements
and implementation details for the testing, certification, acquisition, and operation of
devices that provide unified communications. lA testing shall be conducted pursuant to
these guidelines prior to operation of products. Subsequently, DISA produced the
Mobile Device Management (MOM) SRG, the Wireless Smartphone SAG, the Mobile
OS SRG, as well as STIGs for Apple iOS, Android OS, and Blackberry OS. Seeing that
the Army utilizes DISA as the enterprise solution provider for CMDs, we are compelled
to comply with the MOM SRG, Mobile OS SRG/STIGs, and all future policies related to
mobile technology.




                                     UNCLASSIFIED

                                             3




                                                            17
